Certification of Word Court &
Compliance With Rule 33(1)(g)
1. This Writ of Certiorari contains 3,043 words,
including Certifications.
2. This Writ of Certiorari complies with the font,
spacing, and type size requirements stated in
Rule 33. The font and type size are Century
Schoolbook, 14-point type, for the WRIT and
Century Schoolbook, 12-point type, for the
Appendix.
Rickey Nelson Jones
Rickey Nelson Jones
Law Offices of Reverend
Rickey Nelson Jones, Esquire
rd
3 Floor – Suite 5
1701 Madison Avenue
Baltimore, Maryland 21217
(410) 462-5800
Joneses003@msn.com
Counsel for Record for Petitioner

